Before the Transportation and Infrastructure Committee
Subcommittee on Railroads, Pipelines, and Hazardous Materials
U.S. House of Representatives




  For Release on Delivery
  Expected at
  2 p.m. EST
  Tuesday                   Reauthorization of the
  January 30, 2007
  CC-2007-018               Federal Railroad Safety
                            Program



                            Statement of
                            The Honorable Calvin L. Scovel III
                            Inspector General
                            U.S. Department of Transportation
Chairwoman Brown, Ranking Member Shuster, and Members of the
Subcommittee:

We appreciate the opportunity to testify today on the reauthorization of the Federal
Railroad Safety Program. We commend this Subcommittee for its continued work
in improving railroad safety. Improvements in safety are important because
railroads employ about 232,000 workers and use over 173,000 miles of track in
operations that affect the lives of millions of Americans. In 2005, railroads
traversed 790 million train miles, up 18 percent since 1996. This impact will grow
substantially in the future. While railroads today transport about 42 percent of the
Nation’s freight, the Department estimates that between 1998 and 2020 the
amount of freight transported by rail will increase by about 50 percent.

In addition, nearly 1.7 million carloads of hazardous materials 1 are transported by
rail in the United States each year. Although the industry’s record for transporting
hazardous materials has been good, the catastrophic consequences that can arise
from the release of hazardous materials from rail cars are a significant safety issue.
From 2003 through 2006, the railroads reported 145 rail incidents that involved
hazardous materials, resulting in 19 fatalities and 423 injuries. Although these
numbers, on their face, are not large, these incidents resulted in the evacuation of
17,384 people from their homes and businesses, caused at least $17 million in
track damages, and resulted in about $71 million in equipment damages.

As we reported in our FY 2007 Top Management Challenges issued to the
Department, 2 the Federal Railroad Administration (FRA) must continue
implementing its safety initiatives since train accidents are still on the rise overall.
As the FRA Administrator noted before this Subcommittee in June 2006, the rail
industry’s safety record has improved, but significant train accidents continue to
occur and the train accident rate has not shown substantive improvement in recent
years. To illustrate, even though in 2005 the number of train accidents decreased
by 4 percent and the rate of train accidents per million train-miles traveled
decreased by 7 percent, the overall data for 1995 through 2005 show that train
accidents increased by 31 percent and the rate of train accidents grew by
11 percent (see Attachment 1).

Our body of work on FRA’s oversight programs has found grade-crossing safety
to be a “centerpiece” of rail safety. The second highest percentage of train
accident fatalities—42 percent from 1995 through 2005—is due to collisions at


1
    The Department has classified about 3,500 materials as hazardous, ranging from mild irritants to poisonous and
    radioactive materials.
2
    OIG Report No. PT-2007-004, “Top Management Challenges,” November 15, 2006. OIG reports can be accessed
    on the web at www.oig.dot.gov.
                                                                                                                           2

grade crossings. 3 During this 10-year period, collisions and fatalities at grade
crossings were significantly reduced, by 34 percent and 38 percent, respectively.
Most recently, however, these numbers have increased. From 2003 to 2005,
collisions rose by 2 percent and the number of fatalities jumped by 7 percent.

We issued reports in 1999 4 and 2004 5 on grade crossing safety, and in July 2005,
we presented testimony before this Subcommittee. 6 We also issued an audit report
to FRA in November 2005 7 and plan to issue a fourth report next month on FRA’s
activities to oversee safety at the Nation’s grade crossings. Chairwoman Brown,
our testimony today will draw from the body of work we conducted over the last
several years on rail safety.

Today, I want to focus on two issues that we see as key for the reauthorization of
the FRA rail safety program: (1) improving grade crossing safety through better
compliance with safety regulations and by working with states and (2) identifying
safety trends through data analysis.

Grade crossing safety can be improved by ensuring compliance with FRA
reporting requirements and by working with states to address problems, such as
sight obstructions at grade crossings. On average, one person dies and three
people are injured in the United States every day in grade crossing collisions.
During the course of our work, we have reviewed two of FRA’s reporting
requirements related to grade crossing collisions.

The first requirement is that railroads immediately call the National Response
Center 8 (NRC) to report serious grade crossing collisions. 9 (The National
Transportation Safety Board defines “immediately” as within 2 hours.) This is a
critical mechanism to help FRA determine whether a Federal investigation is

3
    Trespassing fatalities is the leading category of rail-related fatalities for that period, accounting for 52 percent. Our
    1999 report discusses the challenge of reducing trespassing fatalities (OIG Report No. RT-1999-140, Report on Rail-
    Highway Grade Crossing Safety, September 30, 1999). In terms of safety improvements and fatality reductions, the
    potential for the greatest impact would come from improving grade crossing safety since trespassing is a difficult
    behavior to address.
4
    OIG Report No. RT-1999-140, “Rail-Highway Grade Crossing Safety,” September 30, 1999.
5
    OIG Report No. MH-2004-065, “Audit of Oversight of Highway-Rail Grade Crossing Safety Program,”
    June 16, 2004.
6
    OIG Testimony, CC-2005-060, “Highway-Railroad Grade Crossing Safety Issues,” July 21, 2005.
7
    OIG Report No. MH-2006-016, “Audit of Oversight of Highway-Rail Grade Crossing Accident Reporting,
    Investigations, and Safety Regulations,” November 28, 2005.
8
    As part of the Department of Homeland Security, NRC is the Federal Government’s 24-hour point of contact for
    environmental discharges anywhere in the United States and its territories. In addition, through agreements
    containing criteria that serve as triggers for reporting, NRC notifies FRA and other Federal agencies of fatal train
    accidents and grade crossing collisions.
9
    Under FRA’s criteria for immediately reporting to NRC, serious grade crossing collisions are train accidents or
    incidents at crossings that result in one fatality and/or five or more injuries.
                                                                                   3

needed at the accident scene. We reported in November 2005 that between May 1,
2003 and December 31, 2004 railroads failed to notify NRC immediately in
21 percent of reportable grade crossing collisions as required, most involving
fatalities or multiple injuries.

The second requirement is that railroads report every grade crossing collision to
FRA within 30 days of the end of the month in which the collision occurred.
Timely and accurate reporting of grade crossing collisions serves the important
purpose of ensuring that railroad inspections are properly targeted. Our work
identified 12 railroads between 1999 and 2004 that did not report 139 collisions to
FRA on time, with some being reported nearly 3 years late. These collisions
resulted in 2 fatalities and 20 injuries, as ultimately reported by the railroads.
Although these numbers are not large, FRA does not routinely review grade
crossing collision records maintained by the railroads to ensure compliance with
its reporting requirements. We found that FRA does not know whether the
15,406 grade crossing collisions reported by railroads from 2001 through 2005
include all collisions that occurred during those years. We also found that FRA
investigated less than 1 percent of all grade crossing collisions from 2000 through
2004.

In the report we plan to issue next month, we will recommend, among other
actions, that FRA issue a violation every time a railroad does not report a grade
crossing collision in accordance with Federal requirements. A violation notice
triggers the assessment of civil penalties, and railroads that repeatedly fail to
report accidents appropriately should receive higher penalties.

Further, 27 states currently lack state-level laws for maintaining sight distances at
grade crossings. For those states, our ongoing work points to the immediate safety
benefits to be achieved if FRA were to promote the establishment of state laws
addressing sight obstructions, such as overgrown vegetation and structures that
block pedestrians and motorists’ view of approaching trains. At the national level,
voluntary guidelines exist, but they are not enough. FRA should collaborate with
the Federal Highway Administration and the American Association of State
Highway and Transportation Officials to issue mandatory national standards for
maintaining sight distances at grade crossings.

FRA must aggressively implement its data-driven approach and trend
identification. Our audit results since 1998 have repeatedly shown that FRA must
make greater use of data analysis to help target its regulations and oversight on
problem areas—a proactive rather than reactive strategy. Such an approach would
aid in identifying some of the most prevalent causes of train accidents and enable
FRA to devise corrective measures. Our ongoing analyses show that human
                                                                                   4

factors and track problems were responsible for 72 percent of the train accidents
that occurred from 1996 through 2005.

By using trend analysis to track predictive indicators in problem areas, FRA could
identify potential safety “hot spots.” For example, circumstances related to the
January 6, 2005, Norfolk Southern Railway accident in Graniteville, South
Carolina, both illustrate and underscore the value of trend analysis. Even though
FRA began issuing safety advisories within 5 days after this accident, this was a
reactive measure. Had FRA used the data it already had—that switch problems
started trending up in 1997 and took a large jump in 2003—it could have
addressed these problems years before the accident occurred. FRA must continue
to implement and refine its data-driven approach, so that empirical data can be
used to target inspection and enforcement activities where they are most needed.

In February 2005, we recommended a more data-driven approach in our report to
the Secretary and Acting FRA Administrator on our review of FRA’s safety
enforcement data. In May 2005, FRA responded to our recommendation and
launched its National Inspection Plan. The Plan uses predictive indicators to assist
FRA in allocating inspection and enforcement activities within a given region by
railroad and by state. This is a step in the right direction for FRA. It is too soon,
however, to tell exactly how effective these measures will be in the long term. We
plan to revisit FRA’s progress as it continues to implement its National Inspection
Plan.

I would now like to discuss these issues in further detail.

FRA Must Continue To Focus its Grade Crossing Oversight Activities
on Further Reducing Collisions and Fatalities
Although significant progress was made over the last decade—1995 to 2005—
grade crossing collision statistics increased from 2003 to 2005. During the latter
period, collisions rose from 2,977 to 3,041 (2 percent) and the number of fatalities
increased from 334 to 357 (7 percent), with 2004 higher than 2005. These
increases and the upward trend in the volume of train and highway traffic indicate
that more must be done at the Federal and state level to improve grade crossing
safety. Our body of work on grade crossing safety has shown the need for FRA to
develop more focused strategies to further reduce collisions and fatalities.

Ensure compliance with reporting requirements. We reviewed two of FRA’s
reporting requirements. The first is that railroads immediately call the National
Response Center to report serious grade crossing collisions.           Immediate
notification is necessary so that FRA can determine whether a Federal
investigation is needed at the collision scene. In November 2005, we reported on
the need for FRA to clarify its requirement that railroads immediately call the
                                                                                                                     5

National Response Center to report grade crossing collisions that result in fatalities
and multiple injuries. Specifically, we found that 21 percent of serious crossing
collisions were not reported at all, let alone in a timely way. Our analysis showed
that 115 of the 543 serious grade crossing collisions that occurred between
May 1, 2003 and December 31, 2004 should have been reported to the National
Response Center, but were not in its database.

To its credit, FRA implemented a process to reconcile reporting of fatal and other
serious grade crossing collisions to the National Response Center. We
recommended that FRA compare the grade crossing collision reports submitted
monthly to its database with those reported to the National Response Center and
assess and collect civil penalties when railroads fail to report to the National
Response Center.

The second requirement is that railroads report all grade crossing collisions to
FRA within 30 days of the end of the month in which the collision occurred.
Complete information on grade crossing collisions is important to state
transportation officials when spending Federal funds for grade crossing safety
improvements. 10 For example, after five unreported grade crossing collisions in
Iowa were finally submitted to FRA, the Iowa Department of Transportation used
the information provided by the railroads as the basis for allocating funds for
safety improvements at two of the five grade crossings.

Our ongoing work continues to identify problems with the completeness of FRA’s
accident reporting system. We found that railroads are not providing timely
written reports to FRA for all grade crossing collisions. Specifically, our work
identified 12 railroads between 1999 and 2004 that did not report 139 collisions to
FRA on time, with some being reported nearly 3 years late. Although these
numbers are not large, FRA does not know whether all collision reports have been
submitted, as required, because it has not routinely reviewed the grade crossing
collision records maintained by the railroads to ensure compliance with its
reporting requirements.

FRA’s oversight activities should include periodic reviews of the records
maintained by the railroads to ensure that all grade crossing collisions are reported
to its accident reporting system in a timely manner. Further, by ensuring that
accurate and complete reports are submitted in a timely manner for all grade
crossing collisions, FRA and states will have access to accurate data for
identifying dangerous grade crossings and emerging accident trends. This is

10
     FRA oversees rail safety and FHWA provides funding to states for grade crossing safety improvements under Title
     23, USC, Section 130, but the responsibility for improving grade crossings and eliminating hazards rests primarily
     with the states.
                                                                                 6

clearly an area where additional enforcement and civil penalties should be
considered.

Develop strategies to increase FRA’s involvement in grade crossing collision
investigations. In our November 2005 report, we also found that FRA should
develop strategies to increase its effort to investigate grade crossing collisions.
From 2000 through 2004, FRA investigated less than 1 percent of all train
accidents and grade crossing collisions. During the same time period, FRA
investigated only 5 percent of the crossing collisions reported to the National
Response Center. Instead, it relied heavily on accident reports received from the
railroads to evaluate the circumstances, probable causes, and responsible parties
for most crossing collisions. Further, FRA did not broaden its review of those
collisions by verifying the causes through routine review of independent sources
of information, such as police reports or locomotive event recorder data.

With a current inspector workforce of 385, of which 62 are assigned to inspect
signal and train control devices, FRA has a limited capability to investigate the
approximately 3,000 crossing collisions that occur each year.             In our
November 2005 report, we recommended that FRA use a pilot program to collect
and analyze independent information on crossing collisions obtained from
railroads (including event recorder data and collision reports) and local or state
law enforcement agencies. FRA concurred and initiated its pilot study in 2006.
FRA should report the results of this study as soon as possible.

Work with the states to establish laws to address sight obstructions. We found
that greater attention is needed to ensure that highway users have a full view of
approaching trains at the Nation’s grade crossings. When grade crossings are not
protected by automated warning devices, it is imperative that highway users have
a clear view of approaching trains in order to determine when it is safe to cross.
As illustrated in Figure 1 on page 7, vegetation growth at grade crossings can
significantly reduce a motorist’s ability to see the track and any approaching
trains.
                                                                                                                     7


Figure 1. Photographs of Highway Users’ Sight Distances at a Grade
         Crossing Before and After Vegetation Was Cleared
           Highway Users’ View                                            Highway Users’ View
         Before Clearing Vegetation                                     After Clearing Vegetation




Source: Illinois Commerce Commission

Based on FRA’s data, sight obstructions can be a contributing factor in grade
crossing collisions. Of the 15,406 grade crossing reports submitted by the
railroads from 2001 through 2005, 688 noted a sight obstruction, such as standing
railroad equipment and overgrown vegetation.11

Mandatory national standards have not been established to maintain sight
distances at the nearly 76,000 public grade crossings that are not protected with
automated warning devices. Twenty-three states have passed laws for maintaining
sight distances at grade crossings, but the majority of states have no laws. In those
states without laws, highway users must rely on sight distances at grade crossings
established by a combination of (1) voluntary guidance from the Federal Highway
Administration (FHWA) and the American Association of State Highway and
Transportation Officials and (2) the policies and practices implemented by
individual railroad companies.

Since 27 states currently lack state laws for maintaining sight distances at grade
crossings, more needs to be done. For those states, our ongoing work points to the
immediate safety benefits to be achieved if FRA were to promote the
establishment of state laws addressing sight obstructions, such as overgrown
vegetation and structures that block pedestrians and motorists’ view of
approaching trains. At the national level, voluntary guidelines exist, but they are
not enough. FRA should collaborate with the Federal Highway Administration
and the American Association of State Highway and Transportation Officials to

11
      FRA’s grade crossing accident report requires the railroads to document the conditions at the accident scene. The
     report does not require the railroads to identify a primary or secondary cause.
                                                                                                                        8

issue mandatory national standards for maintaining sight distances at grade
crossings.

Establish reporting requirements for FRA’s national grade crossing
inventory system. Accurate and complete inventory data on the characteristics 12
of all grade crossings, public and private, are needed to further improve safety. In
our June 2004 report on the Highway-Rail Grade Crossing Safety Program, we
recommended that FRA establish mandatory reporting requirements for railroads
and states through rulemaking or legislation to improve the accuracy and
completeness of its national grade crossing inventory data. These data are used by
state officials to develop priority listings of crossings that need safety
improvements because they have a high probability of collisions. Although both
FRA and FHWA have made efforts to improve the voluntary reporting of grade
crossing inventory information to FRA’s national database, reporting requirements
have not been established. According to FRA, 32 percent of the private crossing
records in the national inventory database have not been updated since 2001, and
21 percent of the private crossing records have never been updated.

Mandatory reporting is even more important under the Safe, Accountable,
Flexible, and Efficient Transportation Equity Act: A Legacy for Users
(SAFETEA-LU), which changed the apportionment procedures for Section 130 13
funds. SAFETEA-LU requires 50 percent of the $220 million authorized to be
apportioned to the states for grade crossing safety improvements based on a ratio
of the number of public grade crossings in a state to the total number of public
crossings nationwide.

Require states with the most dangerous grade crossings to develop an action
plan. In our June 2004 report that assessed the Highway-Rail Grade Crossing
Safety Program, we recommended that FRA identify the states that have the most
grade crossing accidents year after year, particularly at crossings that have
experienced multiple accidents. We also recommended that FRA work with each
of these states to develop an action plan that identifies specific solutions for
improving safety at those crossings that continue to have accidents. FRA agreed
and in March 2006 completed work with the Louisiana Department of
Transportation and Development on the first such state action plan.

In developing Louisiana’s action plan, FRA’s grade crossing accident data were
analyzed to identify public grade crossings with multiple collisions from 1999

12
     Inventory data on the characteristics of grade crossings include a combination of active warning devices, passive
     warnings, or both. Typically, active warning devices consist of automatic gates, flashing lights, and highway traffic
     signs. Passive warnings are primarily crossbucks, stop signs, advanced warning signs, and pavement markings.
13
     The Department provides set-aside funding to states for grade crossing safety improvements, primarily through
     FHWA, under Title 23, USC, Section 130.
                                                                                                         9

through 2004. This analysis identified 177 public grade crossings that accounted
for 432 collisions during this period. These 432 collisions were analyzed and
several safety focus areas were identified: the majority of collisions occurred in
only 16 of the 64 Parishes in Louisiana, and 85 percent of collisions occurred at
grade crossings without automatic gates. Louisiana transportation officials took
actions to improve safety at 130 of the 177 crossings that experienced multiple
collisions. Four were closed, 50 were equipped with gates, 61 were equipped with
flashing lights, and 15 were scheduled to receive other safety improvements in
2006.

FRA should move forward by initiating individual action plans for those states that
continue to have the highest number of grade crossing collisions, as we
recommended in our 2004 report (see Attachment 2 for a list of our
recommendations since 2003).

FRA Must Aggressively Implement its Data-Driven Approach and
Trend Identification
Our audit results since 1998 have repeatedly shown that FRA would benefit from
an inspection program that places substantially greater emphasis on data analysis
to target its inspection resources—a proactive rather than reactive strategy. Such
an approach would aid in identifying some of the most prevalent causes of train
accidents and enable FRA to devise corrective measures. Our ongoing analyses
show that human factors and track problems were responsible for 72 percent of the
train accidents that occurred from 1996 through 2005. By using trend analysis to
track predictive indicators in problem areas, FRA could identify potential safety
“hot spots.” A number of predictive indicators could yield beneficial preventive
measures, including improperly lined switches and unusually high “defect ratios”
resulting from safety inspections. 14

In February 2005, we reported that FRA’s inspection program was structured to
function in a manner that was (a) discretionary with individual inspectors in regard
to routine inspections and (b) reactive in terms of how it conducted focused
inspections. Currently, 385 inspectors oversee the Nation’s vast network of train
miles. It is critical that FRA’s limited inspection and enforcement resources be
carefully targeted to address those safety problems most likely to result in
accidents and injuries.

In our February 2005 report, we recommended that targeting be achieved through
systematic use of trend analysis, along with other data analysis tools, to examine
key indicators of a railroad’s safety condition (for example, its accident rate,
defect ratio, and employee injury statistics). FRA would benefit from a data-

14
     A defect ratio is a measure of noncompliance and is expressed as a percentage of units inspected.
                                                                                                                   10

driven inspection program that makes substantially greater use of objective
analysis of empirical data and metrics to target its inspection and enforcement
activities. This approach would enable FRA to better allocate its inspection
resources and decide appropriate levels of enforcement.

The value of trend analysis—a key to proactive action. Circumstances related
to the January 6, 2005 Norfolk Southern Railway accident in Graniteville, South
Carolina, both illustrate and underscore the value of trend analysis. Within 5 days
after the accident, FRA issued a safety advisory to all railroads concerning
improperly lined switches stating, “An improperly lined switch invites disaster and
can be easily avoided.[ 15 ] All railroads need to adopt the safety measures outlined
in this advisory.” Trend analysis of rail safety data identifies improperly lined
switches as the second leading cause of railroad accidents in general, and the
leading cause of accidents resulting from human error. Figure 2 below shows a
clear upward trend from 1997 through 2005 in the number and rate of accidents
attributed to improperly lined switches.

             Figure 2. Number and Rate (Per Million Train Miles) of
            Railroad Accidents Caused by Improperly Lined Switches
       Accidents                                                                                            Rate
     250                                                                                                      0.35

                         Accidents                                                                            0.30
     200                 Rate
                                                                                                              0.25

     150
                                                                                                              0.20

                                                                                                              0.15
     100

                                                                                                              0.10
      50
                                                                                                              0.05

       0                                                                                                      0.00
           1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003 2004 2005

     Source: OIG Analysis of FRA Data

The chart also shows that the upward trend of improperly lined switches started in
1997 and took a large jump in 2003—2 years before the Graniteville accident
occurred. By analyzing its data, FRA will be able to conduct predictive analyses


15
     FRA Notice of Safety Advisory 2005-01, “Position of Switches in Non-Signaled Territory,” January 11, 2005.
                                                                                                                   11

                   and identify early indicators of problems, such as improperly lined switches, and
                   order corrective action before accidents occur.

                   Defect ratios—a key indicator of a railroad’s safety that should be used to
                   better target inspections. Defect ratios should be a key factor in determining the
                   number of inspections that railroads receive, but we still see a gap between defect
                   ratios and average inspections. Our 2005 review looked at several rail safety
                   metrics and found that one—safety enforcement data—showed that serious safety
                   problems have long existed for all four major railroads. For example, Union
                   Pacific had the highest average number of train accidents (weighted per million
                   train miles) of the four major railroads during Calendar Years (CYs) 1998-2000
                   and CYs 2001-2003. Yet, Union Pacific had been inspected proportionally less,
                   ranking third in FRA inspections per million train miles between those periods.
                   This is demonstrated in Figures 3 and 4 below.

           Figure 3. Average Defect Ratios                                   Figure 4. Average Inspections
           (Instances of Non-Compliance with FRA Standards                           (Per Million Train Miles)
                          Per Units Inspected)
 Defect Ratio                                                  Inspections
    0.10                                                       120
                CY 1997 - 2001
    0.09
                CY 2002 - 2006
                                                               100
    0.08

    0.07                                                                                                         CY 1997 - 2001
                                                                80                                               CY 2002 - 2006
    0.06

    0.05                                                        60

    0.04
                                                                40
    0.03

    0.02
                                                                20
    0.01

    0.00                                                         0
                  NS             CSX      BNSF           UP          Industry-wide   NS           CSX            BNSF             UP

Legend: Norfolk Southern Corporation (NS)
         CSX Transportation (CSX)
         Burlington Northern Santa Fe Railway Company (BNSF)
         Union Pacific Railroad Company (UP)
Source: OIG Analysis of FRA Data

                   We find it counterintuitive that the railroad with the most track miles and the worst
                   accident rate and defect ratio would be inspected at a lower rate than two of the
                   three other major railroads that had fewer miles and better rates. Trend analysis
                   leading to the targeting of resources on high-risk areas is particularly critical,
                   because FRA inspection resources are limited.
                                                                                 12

FRA has taken steps to address the problem. FRA has been responsive to our
2005 recommendations to implement a data-driven approach. Specifically, we
recommended that FRA submit to the Secretary a comprehensive plan for
implementing a fully functioning program that makes meaningful use of analysis
of available safety, inspection, and enforcement data. As noted by the FRA
Administrator in his June 2006 testimony:

      FRA continually seeks ways to direct its inspection and enforcement
      efforts toward the issues and locations most in need of attention. To
      this end, FRA instituted the National Inspection Plan (NIP), an
      inspection and allocation program that uses predictive indicators to
      assist FRA in allocating inspection and enforcement activities within
      a given region by railroad and by State.

This is a step in the right direction for FRA, but since the Plan was implemented
only in March 2006, it is too soon to tell exactly how effective these measures will
be in the long term.

This concludes my statement. I would be pleased to answer any questions.
                                                                                                    13



                                        Attachment 1

                Number and Rate of Train Accidents
                       1995 through 2005

                                5,000                  5




                                                              Rate of Train Accidents Per Million
                                4,750                  4.75
    Number of Train Accidents

                                4,500                  4.5
                                4,250                  4.25




                                                                     Train Miles Traveled
                                4,000                  4
                                3,750                  3.75
                                3,500                  3.5
                                3,250                  3.25
                                3,000                  3
                                2,750                  2.75
                                2,500                  2.5
                                2,250                  2.25
                                2,000                  2
                                     95

                                     96

                                     97

                                     98

                                     99

                                     00

                                     01

                                     02




                                     05
                                     03

                                     04
                                   19

                                   19

                                   19

                                   19

                                   19

                                   20

                                   20

                                   20

                                   20

                                   20

                                   20
                                             Year


Source: FRA
                                                                                                         14



                                                 Attachment 2

                        Status of OIG Audit Recommendations to FRA
                              Calendar Years 2003 through 2006

Date            Title/Report No.    Recommendation(s)                Status
December 10,    Review of Slow      1. Review CSX ballast            1. Closed. In response to our audit, FRA began
2003            Orders and Track       replacement practices,            efforts to review CSX ballast practices.
                Reclassification,      and follow up on ballast
                MH-2004-007            deficiencies noted during
                                       previous FRA safety
                                       audits and inspections.
                                    2. Monitor railroad R-1          2. Closed. In response to our audit, FRA began
                                       reports on a continuous          monitoring railroad R-1 reports to identify
                                       basis to identify potential      potential problems in roadway investment.
                                       problems in roadway
                                       investment, such as
                                       ballast, and use the
                                       information to target
                                       safety inspections on
                                       individual railroads.
June 16, 2004   Audit of the        3. Identify the states with      3. Open. Although FRA completed a state action
                Highway-Rail           the most dangerous grade         plan with the Louisiana Department of
                Grade Crossing         crossings and require            Transportation and Development in
                Safety Program,        each of these states to          March 2006, this recommendation has not been
                MH-2004-065            develop an action plan           fully implemented. FRA must provide the OIG
                                       that identifies specific         with a list of the states developing state action
                                       solutions for improving          plans and the target dates for implementing
                                       safety at these crossings.       them.
                                    4. Encourage states to           4. Open. The 2004 Grade Crossing Action Plan
                                       increase safety awareness        includes initiatives to expand education
                                       through educational              outreach by adapting traditional outreach
                                       programs, develop                techniques and energizing enforcement by
                                       legislation to modify            expanding on successful programs with law
                                       risky driver behavior            enforcement agencies and the judicial branch.
                                       through photo                    To close this recommendation, FRA must
                                       enforcement, and increase        provide us written documentation on the actions
                                       traffic enforcement              it has taken to implement this recommendation.
                                       strategies.                      We also request that FRA provide us
                                                                        information on the states that have adopted new
                                                                        strategies, what those strategies were, and when
                                                                        they were implemented.
                                                                                                         15

Date           Title/Report No.   Recommendation(s)                 Status
                                  5. Encourage states to set        5. Open. The 2004 Grade Crossing Action Plan
                                     annual goals for closing           includes an initiative to close unneeded
                                     grade crossings and                crossings. To close this recommendation, FRA
                                     strengthen their financial         must identify the states that have developed
                                     incentives to local                annual goals for closing crossings, and
                                     governments for closures.          determine which states have been successful in
                                                                        implementing financial incentives for closing
                                                                        crossings.
                                  6. Identify a method for          6. Open. The 2004 Grade Crossing Action Plan
                                     including the Federal              did not discuss including light and heavy rail
                                     Transit Administration’s           transit incidents with other grade crossing
                                     (FTA) data on light and            collision data. In April 2005, FRA and FTA
                                     heavy rail transit                 informed the OIG that their administrations had
                                     crossing accidents and             jointly posted annual grade crossing incidents,
                                     fatalities in the new              injuries, and fatalities on FRA’s website to
                                     action plan’s goals and            address our recommendation. However, our
                                     statistics.                        review of FRA’s website shows that the data
                                                                        has not been updated since July 18, 2005.
                                  7. Promote reporting              7. Open. Although both FRA and FHWA have
                                     requirements for railroads         made efforts to improve the voluntary reporting
                                     and states through                 of grade crossing inventory information to
                                     rulemaking or legislation.         FRA’s national database, reporting requirements
                                                                        have not been established. To close this
                                                                        recommendation, FRA must issue a rule or
                                                                        obtain legislative approval from Congress for
                                                                        requiring reporting of grade crossing inventory
                                                                        data.
                                  8. Ensure that states comply      8. Closed. FHWA sent a letter to the states on
                                     with the annual reporting          September 30, 2004, advising them of the
                                     requirement for their              annual requirement to submit evaluation reports
                                     Section 130 fund                   on their progress in implementing the highway-
                                     expenditures.                      rail crossing program, as required under 23 USC
                                                                        130. After a review of FHWA documents, we
                                                                        found that 38 states submitted their 2005
                                                                        reports, which was a significant improvement
                                                                        from what we reported in June 2004. In 2006,
                                                                        45 states and the District of Columbia complied
                                                                        with this annual reporting requirement.
November 28,   Audit of           9. Require the railroads to       9. Open. FRA plans to clarify its NRC reporting
2005           Oversight of          report any grade crossing          requirements, to include the immediate
               Highway-Rail          collision to NRC that              reporting of any grade crossing collision that
               Grade Crossing        results in a fatality at the       results in a fatality at the scene or death within
               Accident              scene or death within 24           24 hours of the accident. To close this
               Reporting,            hours of the accident.             recommendation, FRA must publish new
               Investigations,                                          reporting requirements in the Federal Register
               and Safety                                               for Title 49, Part 225.9 of the Code of Federal
                                                                        Regulations.
                                                                                                16

Date   Title/Report No.   Recommendation(s)                Status
       Regulations,       10. Continue monthly             10. Closed. FRA has continued its monthly
       MH-2006-016            reconciliation of the FRA        reconciliation of the FRA database with NRC
                              database with NRC                records. FRA has also started assessing fines
                              records and strongly             against the railroads for failing to comply with
                              enforce requirements to          the reporting requirement.
                              report to the NRC by
                              assessing civil penalties.
                          11. Using a pilot program,       11. Open. FRA is conducting a pilot study to verify
                              collect and analyze              the accuracy of the railroads’ grade crossing
                              independent information          collision reports by comparing these reports to
                              on crossing collisions to        state and local police reports. FRA’s Office of
                              evaluate the causes of           Safety will monitor the progress of this pilot
                              collisions, types of             study and determine whether the findings
                              warnings in place, and           support a broader application of the program.
                              railroads’ compliance
                              with Federal safety
                              regulations.
                          12. Increase enforcement of      12. Open. In May 2005, the Secretary announced a
                              existing safety                  National Rail Safety Action Plan, which
                              regulations against              included an initiative to implement a National
                              railroads by                     Inspection Plan. In March 2006, FRA
                              recommending more                completed its application of this plan to all the
                              violations and more civil        FRA inspection disciplines. Once the National
                              penalties.                       Inspection Plan has taken its full effect, FRA
                                                               expects a reduction in both the number and rate
                                                               of train accidents.
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to assist screenreaders.
 Testimony on the Reauthorization of the Federal Railroad Safety Program
                   Section 508 Compliant Presentation


Figure 2. Number and Rate (Per Million Train Miles) of Railroad Accidents
Caused by Improperly Lined Switches

    Year      Accidents        Rate
    1990          95           0.16
    1991          85           0.15
    1992          84           0.14
    1993          87           0.14
    1994          99           0.15
    1995         113           0.17
    1996         106           0.16
    1997         141           0.21
    1998         142           0.21
    1999         156           0.22
    2000         163           0.23
    2001         156           0.22
    2002         168           0.23
    2003         226           0.30
    2004         219           0.28
    2005         201           0.25
Source: OIG analysis of FRA data


Figure 3. Average Defect Ratios (Instances of Non-Compliance with FRA
Standards Per Units Inspected)

 Railroad                                      Calendar Year   Calendar Year
                                                1997-2001       2002-2006
 Norfolk Southern Corporation (NS)                 0.08            0.07
 CSX Transportation (CSX)                          0.08            0.09
 Burlington Northern Santa Fe Railway
                                                    0.08            0.08
 Company (BNSF)
 Union Pacific Railroad Company (UP)                0.09            0.10
Source: OIG analysis of FRA data
Figure 4. Average Inspections (Per Million Train Miles)

 Railroad                                      Calendar Year   Calendar Year
                                                1997-2001       2002-2006
 Industry-wide                                      75              88
 Norfolk Southern Corporation (NS)                  68              81
 CSX Transportation (CSX)                           86              107
 Burlington Northern Santa Fe Railway
                                                     41              45
 Company (BNSF)
 Union Pacific Railroad Company (UP)                 65              73
Source: OIG analysis of FRA data


Attachment 1. Number and Rate of Train Accidents 1995 through 2005

   Year     Accidents          Rate
   1995      2,459             3.67
   1996      2,443             3.64
   1997      2,397             3.54
   1998      2,575             3.77
   1999      2,768             3.89
   2000      2,983             4.13
   2001      3,023             4.25
   2002      2,738             3.76
   2003      3,011             4.05
   2004      3,374             4.38
   2005      3,225             4.08
Source: FRA
